Audit Report




OIG-12-044
The Department of the Treasury Was Not in Compliance
With the Improper Payments Elimination and Recovery Act for
Fiscal Year 2011
March 15, 2012




Office of
Inspector General
Department of the Treasury
 
Contents



Audit Report

  Results in Brief ...............................................................................................1

  Background ...................................................................................................2

  Finding and Recommendations .........................................................................5

      Treasury Did Not Fully Report on Its Payment Recapture Audits .....................5
      Recommendations......................................................................................6

Appendices

  Appendix     1:      Objectives, Scope, and Methodology ......................................                8
  Appendix     2:      TIGTA’s Report on IRS’s Compliance With IPERA .....................                     10
  Appendix     3:      Management Response .........................................................           30
  Appendix     4:      Major Contributors to This Report ...........................................           32
  Appendix     5:      Report Distribution ................................................................    33

Abbreviations

  AFR                  Agency Financial Report
  DO                   Departmental Offices
  EITC                 Earned Income Tax Credit
  IPERA                Improper Payments Elimination and Recovery Act of 2010
  IPIA                 Improper Payments Information Act of 2002
  IRS                  Internal Revenue Service
  OIG                  Office of Inspector General
  OMB                  Office of Management and Budget
  RCG                  Risk and Control Group
  TIGTA                Treasury Inspector General for Tax Administration




                       Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044)          Page i
        This Page Intentionally Left Blank.




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044)   Page ii
                                                                                   Audit
OIG
The Department of the Treasury
                                                                                   Report
Office of Inspector General



                  March 15, 2012

                  Daniel Tangherlini
                  Assistant Secretary for Management
                     and Chief Financial Officer

                  This report presents the results of our audit of the Department of
                  the Treasury’s (Treasury) compliance with Public Law 111-204,
                  Improper Payments Elimination and Recovery Act of 2010 (IPERA).
                  IPERA was enacted to help Federal agencies strengthen the
                  framework for reducing and reporting improper payments. IPERA
                  amended the Improper Payments Information Act of 2002 (IPIA)
                  and expanded requirements for improper payment reporting and
                  recovering overpayments across a broad range of federal programs.

                  We initiated this audit in accordance with IPERA, which requires
                  the Treasury Inspector General to assess and report on Treasury’s
                  compliance with improper payment requirements.

                  The Treasury Inspector General for Tax Administration (TIGTA)
                  performed a limited review of the Internal Revenue Service’s (IRS)
                  compliance with IPERA and issued its report on March 2, 2012,
                  which is included as appendix 2 of this report. The results of our
                  audit, insofar as they relate to the IRS, are based solely on TIGTA’s
                  report.


Results in Brief
                  Treasury is not in compliance with IPERA due to IRS’s Earned
                  Income Tax Credit (EITC) improper payments reporting deficiencies
                  reported by TIGTA. Specifically, IRS has not established annual
                  EITC improper payment reduction targets. IRS also did not report
                  an improper payment rate of less than 10 percent for EITC.

                  In addition, although Treasury reported on its payment recapture
                  audits program in its fiscal year 2011 agency financial report
                  (AFR), it did not include certain information required by OMB


                  Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044)   Page 1
                         Circular No. A-136, Financial Reporting Requirements, related to
                         payment recapture audits reporting. TIGTA reported that IRS’s
                         estimate of the EITC improper payment rate provided a reasonable
                         estimate of overclaims, but the calculation did not include an
                         estimate of underpayments.

                         We are making two recommendations in this report to address the
                         finding related to Treasury’s payment recapture audits reporting. In
                         a written response to this report, provided as appendix 3, Treasury
                         management agreed with our recommendations and provided its
                         planned corrective actions.

                         Since we determined that Treasury was not in compliance with
                         IPERA for fiscal year 2011, the Secretary of the Treasury is
                         required to submit a plan to Congress describing the actions that
                         Treasury will take to come into compliance. 1


Background
                         The Improper Payments Elimination and Recovery Act of 2010

                         IPIA requires federal agencies to estimate the amount of improper
                         payments made each year. Agencies are required to report to
                         Congress on the causes and steps taken to reduce improper
                         payments, and to address whether they have the information
                         systems and other infrastructure needed to reduce improper
                         payments. Agencies must also describe the steps taken to ensure
                         managers are held accountable for reducing improper payments.

                         IPERA amended IPIA, redefining the previous definition of
                         “significant improper payments” and strengthening agency
                         reporting requirements. It also requires increased agency efforts by
                         expanding the types of payments that should be reviewed and
                         lowering the threshold of annual outlays that requires agencies to
                         conduct payment recapture audit programs.

                         On April 14, 2011, OMB issued Revised Parts I and II to
                         Appendix C, “Requirements for Effective Measurement and
                         Reduction of Improper Payments,” of OMB Circular No. A-123,

1
    P.L. 111-204, § 3(c)(1).


                         Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044)   Page 2
Management’s Responsibility for Internal Control, on the
implementation of IPERA. This guidance provided federal agencies
with the required steps to follow in (1) identifying and reporting on
improper payments and (2) performing and reporting on payment
recapture audits.

To determine compliance with IPERA and OMB guidance, we are
required to review Treasury’s fiscal year 2011 AFR and any
accompanying information to assess whether Treasury has:

    •   Published an AFR for the most recent fiscal year and posted
        that report and any accompanying materials required by
        OMB on Treasury’s website;
    •   Conducted a program specific risk assessment for each
        program or activity that conforms with 31 U.S.C. §3321, if
        required;
    •   Published improper payment estimates for all programs and
        activities identified as susceptible to significant improper
        payments under its risk assessment, if required;
    •   Published programmatic corrective action plans in the AFR, if
        required;
    •   Published, and has met, annual reduction targets for each
        program assessed to be at risk and measured for improper
        payments;
    •   Reported a gross improper payment rate of less than 10
        percent for each program and activity for which an improper
        payment estimate was obtained and published in the AFR;
        and
    •   Reported information on its efforts to recapture improper
        payments.

If an agency does not meet one or more of these requirements,
then it is not compliant with IPERA.

Improper Payment Risk Assessment

Treasury’s Risk and Control Group (RCG), a division under the
Deputy Chief Financial Officer, issued Treasury-wide Guidance for
the FY 2011 Review and Risk Assessment to all Treasury bureaus
and Departmental Offices (DO) subcomponents (hereafter we refer
to bureaus and DO subcomponents collectively as “components”).


Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044)   Page 3
RCG identified the programs for which components were required
to assess the risk of improper payment. Treasury components used
the Improper Payments Elimination and Recovery Risk Assessment
Questionnaire for FY 2011 developed by RCG to assess the level of
risk for each program identified. Each component was to provide
the results and documentation for all risk assessments to RCG. For
any program identified as having a high risk for improper payment,
the responsible component was also required to provide the
following information for inclusion in the AFR:

    •   The rate and amount of improper payment;
    •   The root causes of improper payments;
    •   Actions taken to address the root causes;
    •   Annual improper payment reduction targets; and
    •   A discussion of any limitations to the component’s ability to
        reduce improper payments.

For fiscal year 2011, Treasury identified the EITC, administered by
IRS, as the only high risk program to be included in the AFR.

Payment Recapture Audits

IPERA requires agencies to conduct payment recapture audits (also
known as recovery audits) for each program and activity that
expends $1 million or more annually, if conducting such audits
would be cost-effective. A payment recapture audit is a review and
analysis of an agency’s or program’s accounting and financial
records, supporting documentation, and other pertinent information
supporting its payments, that is specifically designed to identify
overpayments. Agencies are required to have a cost-effective
program of internal control to prevent, detect, and recover
overpayments.

RCG issued Treasury-wide Guidance for the FY 2011 Payment
Recapture Audits to Treasury components. This guidance required
each component to complete a worksheet providing a consistent
reporting format that includes information on the component’s
payment recapture audits. The worksheets were to be submitted to
RCG for review and the results were then consolidated and
reported in the AFR.




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044)   Page 4
Finding and Recommendations

            Treasury Did Not Fully Report on Its Payment Recapture
            Audits

            Treasury’s fiscal year 2011 AFR did not include the following
            information required by OMB Circular No. A-136, Financial
            Reporting Requirements and OMB Circular No. A-123, Appendix C:

                •   Justification for the determination that certain overpayments
                    are not collectable.
                •   Aging of outstanding overpayments.
                •   Disposition of recaptured funds.
                •   Overpayments recaptured outside of payment recapture
                    audits.
                •   A list of programs and activities that expend more than
                    $1 million where it was determined that conducting a
                    payment recapture audit program would not be cost
                    effective and the justification and analysis used in making
                    this conclusion. It should be noted that the Treasury
                    Executive Office for Asset Forfeiture (TEOAF) and the
                    Bureau of the Public Debt’s Office of Public Debt Accounting
                    (OPDA) determined that a payment recapture audit of their
                    programs would not be cost effective. However, these
                    programs were not reported in the AFR nor were the Office
                    of Inspector General (OIG) and OMB notified as required by
                    OMB guidance.

            Treasury consulted with OMB on how to report recapture
            information in its AFR when it did not have the information about
            the aging of outstanding overpayments, disposition of recaptured
            funds, and overpayments recaptured outside of payment recapture
            audits. OMB told them that agencies are required to report this
            information, if available. If the information is not available, Treasury
            was advised that an agency should still include the required chart,
            noting that the information is not available along with when it plans
            to report it. Based on that, Treasury disclosed in its AFR that due
            to the delayed release of IPERA implementation guidance,
            Treasury’s bureaus were not able to fully implement or develop the
            mechanisms to acquire the additional information specified in the



            Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044)   Page 5
amended payment recapture audit guidance to complete the aging
of outstanding overpayments, disposition of recaptured funds, and
overpayments recaptured outside of payment recapture audits
tables.

Regarding EOAF and OPDA’s programs for which it was
determined that a payment recapture audit program would not be
cost effective, Treasury deemed the programs to be low risk and
immaterial and therefore did not notify OMB and the OIG nor
disclose these programs in the AFR. The implementing guidance,
however, does not provide for an agency determination as to the
materiality threshold for notifying OMB and the OIG and inclusion
in the AFR; rather, it is required for all programs and activities that
expend more than $1 million.

Treasury stated in its AFR that it was developing an updated plan
to ensure implementation of the payment recapture audit portion of
IPERA no later than the end of fiscal year 2013. We believe that
Treasury should accelerate its efforts to comply with IPERA for
fiscal year 2012.

Recommendations

We recommend that the Assistant Secretary for Management and
Chief Financial Officer:

    1. Ensure that components submit required payment recapture
       audits information to RCG for inclusion in the AFR.

    2. Notify OMB and the OIG of any programs and activities that
       expend more than $1 million where a cost effective payment
       recapture audit program is not able to be performed and
       include these programs and activities in the AFR with the
       justification and analysis used to make this conclusion.

Management Response

Management agreed with our recommendations. Treasury plans to
update its annual IPERA guidance to ensure compliance with
required disclosures and notifications.




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044)   Page 6
OIG Comment

The actions planned by Treasury satisfy the intent of the
recommendations.

                                 ******

We appreciate the courtesies and cooperation extended to our staff
during this audit. Should you have any questions, you may contact
me at (202) 927-5400, or Joel A. Grover, Deputy Assistant
Inspector General for Financial Management and Information
Technology Audits at (202) 927-5768. Major contributors to this
report are listed in appendix 4.


/s/
Marla A. Freedman
Assistant Inspector General for Audit




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044)   Page 7
Appendix 1
Objectives, Scope and Methodology




The objective of our audit was to determine Treasury’s compliance
with IPERA, OMB Circular No. A-123, Appendix C, Requirements
for Effective Measurement and Remediation of Improper Payments
and OMB Circular No. A-136, Financial Reporting Requirements.
Our scope did not include the review of programs and activities
administered by IRS. TIGTA is responsible for the audit of IRS’s
compliance with IPERA. TIGTA’s scope was limited to an
assessment of EITC information that IRS provided for inclusion in
Treasury’s AFR. EITC was the only program identified by the IRS
for improper payment reporting.

To accomplish our objective, we reviewed applicable laws, OMB
Guidance, and Treasury-wide Guidance related to IPERA;
interviewed key DO and component personnel; and performed
testing of Treasury’s risk assessment and payment recapture
audits. We reviewed Treasury’s fiscal year 2011 AFR to determine
if Treasury complied with the reporting requirements of IPERA. We
conducted our fieldwork in Washington, DC from January to March
2012.

To review Treasury’s risk assessment process, we randomly
selected a sample of 27 of the 68 non-IRS programs identified by
Treasury for risk assessment. To determine the reasonableness and
accuracy of the information reported and compliance with the
applicable guidance for the sample, except for one of the programs
in our sample, we reviewed the program risk assessments and
conducted interviews of personnel involved in their preparation and
review.

To review the payment recapture audit program we randomly
selected a sample of 13 of the 18 non-IRS components. To
determine the reasonableness and accuracy of the information
reported, and compliance with the applicable guidance for the
sample, we reviewed the components’ submissions and conducted
interviews with component personnel, as well as reviewed
supporting documentation.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and


Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044)   Page 8
Appendix 1
Objectives, Scope and Methodology




conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044)   Page 9
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 10
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 11
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 12
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 13
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 14
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 15
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 16
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 17
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 18
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 19
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 20
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 21
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 22
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 23
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 24
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 25
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 26
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 27
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 28
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 29
Appendix 3
Management Response




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 30
Appendix 3
Management Response




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 31
Appendix 4
Major Contributors To This Report




Joel A. Grover, Deputy Assistant Inspector General for Financial
 Management and Information Technology Audit
Michael Fitzgerald, Director, Financial Audit
Catherine Yi, Audit Manager
Shiela Michel, Audit Manager
Myung Han, Audit Manager
Rufus Etienne, Auditor-in-Charge
Kenneth Harness, Senior Auditor
Robert Hong, Auditor
Angelo Arpaia, Referencer




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 32
Appendix 5
Report Distribution




The Department of the Treasury

   Secretary of the Treasury
   Deputy Secretary of the Treasury
   Assistant Secretary for Management and
      Chief Financial Officer
   Deputy Chief Financial Officer
   Director, Risk and Control Group

Office of Management and Budget

   Controller, Office of Federal Financial Management
   OIG Budget Examiner

United States Senate

   Chairman and Ranking Member
   Committee on Homeland Security and Governmental Affairs

U.S. House of Representative

   Chairman and Ranking Member
   Committee on Oversight and Government Reform

U.S. Government Accountability Office

   Comptroller General of the United States




Treasury Was Not in Compliance With IPERA for Fiscal Year 2011 (OIG-12-044) Page 33
